No. 19-710

tbe 6upreme Court of tbe Zilutteb *taco
CONNECTICUT FINE WINE AND SPIRITS, LLC,
dba Total Wine & More
Petitioner,
v.
MICHELLE H. SEAGULL, COMMISSIONER, CONNECTICUT
DEPARTMENT OF CONSUMER PROTECTION, et al.
ON PETITION FOR A WRIT OF CERTIORARI TO THE UNITED
STATES COURT OF APPEALS FOR THE SECOND CIRCUIT

BRIEF OF SOUTHERN GLAZER'S WINE AND
SPIRITS, LLC AS AMICUS CURIAE
IN SUPPORT OF PETITIONER
As required by Supreme Court Rule 33.1(h), I
certify that this Brief contains 3479 words, excluding
the parts of the document that are exempted by Supreme Court Rule 33.1(d).
I declare under penalty of perjury that the foregoing is true and correct.
Executed on January 3, 2020.

Joshua S. Johnson
Counsel for Amicus Curiae

